OFFICE OF INSPECTOR GENERAL 



   Managentent Letter No. 10-18: 

    Security at Archives I and II 


        September 16, 2010 

                       National Archives and Records Administration
                       Office of Inspector General                                           8601 Adelphi Road
                                                                            College Park, Maryland 20740-6001

Date         September 16,2010

Reply to :   Office ofInspector General (OIG)

Subject      Management Letter #10-18, Security at Archives I and II

To           David S. Ferriero, Archivist (N)

This memorandum defines our concerns on the security offered to our staff, visitors and holdings at
NARA's Archives I and II facilities. In light of events at the Holocaust Museum, and more recently
at the Discovery Channel Building, a trained and professionally skilled security force is of utmost
importance. During our ongoing fieldwork for the Audit of the Security Force Contract, we
identified risk factors concerning NARA's contract security officers we believe warrant your
immediate attention. These include:

       1. The security officers have not met the firearm qualification requirements of the contract.
       Instead of using the services provided at no charge by the contractor, a majority of the officers
       are conducting their shooting with an independent contractor at their own expense. The Chief of
       NARA's Security Management Branch (NASS) reported this instructor uses his own course of
       fire, which differs from the one required by the contract. Neither NASS, nor the contractor, has
       verified or witnessed these qualifications. Further, the instructor refused an OIG request to be
       allowed to witness individual qualifications. Without such verification, NARA has no assurance
       officers are proficient enough with their weapons to perform their duties at Archives I and II.

       2. Security officers may not have the physical capacity to perform all functions described in the
       contract; such as providing physical protection by stopping, apprehending and detaining suspects
       and violators. First, the contractor does not have a physical fitness program as required by the
       contract. Second, the physical fitness test applied through the contract is limited only to
       traveling specified routes in Archives I and II, the most physical part being climbing four stories.
       The tests do not evaluate nor replicate the capacity and capabilities needed to respond to the
       variety of emergency situations which could arise at our facilities.

       3. Neither NASS, nor the contractor, have conducted any exercises to test the officers' response
       to different emergency situations. According to the NASS Chief, NARA would rely on local
       police or first-responders in the event of an emergency. However, there have been no drills or
       tests to coordinate responses with local first responders. Thus, not only are the contract security
       officers not trained to respond to threats to our facilities and persons, but there is no active
       engagement with first-responders to familiarize them with our buildings, layout and content of
       holdings. Without drills or tests, we lack confidence the security officers would be able to
       respond appropriately during an incident.

The risk factors identified above were directed to the Acting Assistant Archivist for Administration
and the NASS Chief. The NASS Chief does not share our concerns related to firearms qualification.



                                     National Archives and Records Administration
Instead of holding the contractor to the requirements in the contract (the requirements NARA has
been paying for), he initiated discussions with the Contracting Officer to modify the contract in order
to remove the more rigorous NARA firearms qualifying course of fire. In addition, he did not
believe that the guard force equates to a law enforcement presence warranting more stringent
physical fitness standards and testing. Further, in lieu of active testing and drills for the security
officers, and integration with local first-responders, NASS officials stated security officers are given
binders of written directions (post orders) with instructions for specific emergencies, with which the
officers are supposed to be familiar. Despite the terms of the contract (and thus the services NARA
is paying for), NASS states they only expect the on-site officers to contact local first responders, and
help guide them to the scene of any ongoing emergency once they arrive.

As this is a safety and security issue I have opted to compose this management letter so that you
might consider immediate action to address the internal control weaknesses we have identified.
Additional content will be provided in the ensuing audit report. Should you have any questions,
please contact me on (301) 837-1532.



    %1A J
Paul Brachfeld
Inspector General




                                 National Archives and Records Administration
